Case: 19-1604

Document: 105

Page: 1

Date Filed: 01/05/2021

NOT PRECEDENTIAL

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
No. 19-1604
______________
UNITED STATES OF AMERICA
v.
JAMES DAVIS,
Appellant
______________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2:15-cr-00138-001)
District Judge: Hon. Wendy Beetlestone
______________
Submitted under Third Circuit L.A.R. 34.1(a)
December 15, 2020
______________
Before: GREENAWAY, JR., SHWARTZ, and FUENTES, Circuit Judges.
(Filed: January 5, 2021)
______________
OPINION ∗
______________

∗

This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7
does not constitute binding precedent.

1a

Case: 19-1604

Document: 105

Page: 2

Date Filed: 01/05/2021

SHWARTZ, Circuit Judge.
James Davis appeals his convictions for honest services wire fraud and conspiracy,
arguing that the Government did not prove that Davis’s campaign contributions to the
Philadelphia Sheriff were part of an “explicit” quid pro quo. He also challenges his
sentence, claiming that the Government failed to show exactly how much of his business
flowed from his corrupt bargain. Because there was sufficient evidence from which a
reasonable jury could find an explicit quid pro quo, we will affirm Davis’s convictions.
Moreover, because the Government need not prove the exact amount of business Davis
received as a result of his bribes, we will also affirm his sentence.
I
Davis owned Reach Communications Specialists, Inc. (“Reach”), an advertising
company, and RCS Searchers, Inc. (“RCS”), a title search and deed preparation business.
Since 1989, Reach published property foreclosure notices for the Philadelphia Sheriff’s
Office. RCS conducted title searches and prepared deeds for those properties. This
arrangement yielded Davis’s businesses millions of dollars.
To secure that business, Davis bribed John Green, the elected Sheriff of
Philadelphia, with a stream of benefits, which took the form of non-campaign and
campaign contributions. For example, Green told Davis he had found a house that he
wanted. Davis then bought and repaired that home, allowed Green to live there rent-free,
then sold it to Green at a loss of over $39,000. In addition, Davis gave Green $62,000 to
purchase his Florida retirement home. For the closing, Davis wired $258,151.32 directly
to the title company. Although Green repaid Davis for the wire transfer, as well as an
2
2a

Case: 19-1604

Document: 105

Page: 3

Date Filed: 01/05/2021

additional $2,100, Green still netted more than $70,000 in cash from Davis during their
relationship. Davis also provided Green and his family other benefits. For example,
Davis hired Green’s wife to work at one of his companies, paying her over $89,000
between 2004 and 2010.
Davis also provided Green campaign benefits. For instance, Green initially did
not want to seek re-election in 2007, but Davis and others persuaded him to run.
According to Janet Pina, Green’s former chief deputy, Davis encouraged Green to run
because Davis wanted to “maintain [his] contracts” with the Sheriff’s Office. J.A. 776.
Similarly, Barbara Deeley, Green’s chief deputy after Pina, testified that “Mr. Davis was
worried about his company, and, you know, a new sheriff coming in.” J.A. 1237. Harold
James, a close friend of Green, also testified that Davis wanted Green to run because “he
was doing work for him.” J.A. 2559.
Green told Davis and Deeley that they would have to do “all of the work” for the
campaign. J.A. 1239. When Deeley told Davis that she could not handle the work alone,
Davis told her not to worry about it and worked on “almost everything” with Deeley.
J.A. 1239-40. In fact, when Green needed more money and advertising to fend off a
well-funded primary opponent, Davis helped with both. To that end, Reach provided
over $148,000 in unreported campaign advertising services, without charge, and Davis
instructed Deeley to falsely report the services on the Campaign Finance Report (“CFR”)
as a $30,000 debt, as well as to record false expenditures on the CFRs, including more
than $12,000 in payments to Reach.

3
3a

Case: 19-1604

Document: 105

Page: 4

Date Filed: 01/05/2021

Davis also contributed cash. Throughout the campaign, Deeley kept Green
apprised of the finances, and when the campaign needed money, Green told Deeley to
“talk to Davis.” J.A. 1278. Davis “always came through.” App. 1272. When the 2007
campaign was running out of money, Deeley approached Davis for help, and he told her
not to worry and thereafter deposited $50,000 into the campaign’s account. This
contribution was above the campaign contribution limits, and Davis instructed Deeley not
to record the deposit on the CFR. When the campaign needed more than $12,000 to
attend a charity event and purchase a related advertisement, Green again told Deeley to
“go talk to Davis.” J.A. 1284-85. Davis again paid the amount but hid the contribution
by making the check payable to Deeley and falsely indicating that it was to pay her for a
summer home rental. Deeley in turn deposited the check and provided the funds to the
campaign from her account. Davis again instructed Deeley not to record the payment on
the CFR. Davis also used his daughter to funnel funds to the campaign. Specifically, he
directed his daughter to donate $2,500 to the campaign, the maximum allowable
contribution under the 2007 campaign finance limits, and then repaid her.
In exchange for these noncampaign and campaign benefits, Green funneled
lucrative Sheriff’s Office business to Davis’s companies. With Green’s approval, from
2002 to 2010, Reach received over $22 million for Sheriff’s Office advertising work and
RCS received over $12 million for performing real estate services for Sheriff’s Office

4
4a

Case: 19-1604

Document: 105

Page: 5

Date Filed: 01/05/2021

sales. This business constituted about ninety percent of Davis’s approximately $1.9
million in net income from 2004 to 2010. 1
Davis sought continued access to the Sheriff’s Office when Green considered
retiring. Among other things, Davis paid for Harold James and Jewell Williams, a
candidate to replace Green, to fly to Florida to meet with him and Green to discuss who
would replace Green when he retired. James believed that Davis facilitated the meeting
to safeguard his business with the Sheriff’s Office upon Green’s retirement.
Like Davis, Green tried to conceal their arrangement. Green knew that he was
supposed to provide written contracts for professional services to the City Law
Department for its review, but he only began to put contracts in writing in 2003, and did
so only after a City Controller’s audit report criticized his practice of using oral
agreements. Even after Green began using written contracts, the contracts with Davis’s
companies did not include all the services that Davis provided to the Sheriff’s Office.
Green further sought to conceal his relationship with Davis by failing to disclose the gifts
and loans from Davis on his City of Philadelphia Statement of Financial Interest forms.
Following trial, a jury found Davis guilty of conspiracy to commit honest services
wire fraud and to obtain property under color of official right in violation of 18 U.S.C.

1

Davis also influenced who else got Sheriff’s Office work. For instance, Andrew
Miller owned a company that issued title insurance policies and distributed funds from
tax lien and delinquent sales for the Sheriff’s Office. Miller sought to obtain the more
lucrative mortgage foreclosure work. To get that business, Miller met with Green and
Davis. Similarly, Jacqueline Roberts owned a title agency and met with Green and Davis
before securing some of her work with the Sheriff’s Office.
5

5a

Case: 19-1604

Document: 105

Page: 6

Date Filed: 01/05/2021

§ 371 honest services wire fraud in violation of 18 U.S.C. §§ 1343, 1346, 1349;two
counts of filing a false tax return in violation of 26 U.S.C. § 7206(1); and three counts of
willful failure to file a tax return in violation of 26 U.S.C. § 7203. Based on Davis’s
Criminal History Category I, and the approximately $1.7 million in benefits Davis
received from the Sheriff’s Office in return for the multiple bribes to Green, his total
offense level was thirty-four, resulting in a Sentencing Guidelines range of 151 to 188
months. The District Court varied downward and sentenced Davis to 121 months’
imprisonment, ordered him to make a $872,395.83 tax payment, and entered a
$1,718,540 million forfeiture judgment. Davis appeals.
II 2
A3
The jury found that Davis committed honest services wire fraud and conspiracy to
do so by, among other things, using campaign contributions to bribe Green. 4 Davis
contends that there was insufficient evidence upon which the jury could conclude that an
explicit quid pro quo existed. We disagree.
When reviewing a sufficiency of the evidence challenge, we must determine
“whether, after viewing the evidence in the light most favorable to the prosecution, any

2

The District Court had subject matter jurisdiction under 18 U.S.C. § 3231. We
have jurisdiction under 28 U.S.C. § 1291 and 18 U.S.C. § 3742(a).
3
We review sufficiency challenges de novo. See United States v. Bruce, 405 F.3d
145, 149 (3d Cir. 2005).
4
The jury also heard evidence about non-campaign payments, but Davis only
challenges the finding that the campaign contributions constituted illegal quid pro quos.
6

6a

Case: 19-1604

Document: 105

Page: 7

Date Filed: 01/05/2021

rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319 (1979) (emphasis omitted). 5
Here, the jury found that Davis bribed Green with, among other things, campaign
contributions. In a political system based upon private campaign contributions, care must
be taken to ensure that a donor is not prosecuted based on only “proof of a campaign
donation followed by an act favorable to the donor.” United States v. Siegelman, 640
F.3d 1159, 1170 (11th Cir. 2011). Rather, a campaign contribution becomes an illegal
bribe “only if the payments are made in return for an explicit promise or undertaking by
the official to perform or not to perform an official act.” 6 McCormick v. United States,
500 U.S. 257, 273 (1991). 7
Davis asserts that the words “express” and “explicit” mean the same thing, but he
is incorrect. See, e.g., Siegelman, 640 F.3d at 1171 (rejecting argument that explicit in
McCormick means express); United States v. Blandford, 33 F.3d 685, 696 (6th Cir. 1994)
(observing “that by ‘explicit’ McCormick did not mean ‘express’”); United States v.

5

The Government argues that Davis tries to embed a waived challenge to the jury
instructions in his sufficiency argument. The District Court instructed the jury that if it
relied on campaign contributions to convict Green, “[t]he agreement must be explicit, but
there is no requirement that it be express.” App. 5903, 5915. Davis does not challenge
the accuracy of the instruction. Furthermore, our review of a sufficiency challenge is
based upon the elements of the offense, and not how those elements are described in the
instructions. See Musacchio v. United States, 136 S. Ct. 709, 715 (2016).
6
The parties do not dispute that Green awarding Davis Sheriff’s Office contracts
constitutes an official act.
7
No party disputes that McCormick’s reasoning extends to honest services wire
fraud, and we will assume that it does. See, e.g., United States v. Ring, 706 F.3d 460,
466 (D.C. Cir. 2013); Siegelman, 640 F.3d at 1170.
7

7a

Case: 19-1604

Document: 105

Page: 8

Date Filed: 01/05/2021

Carpenter, 961 F.2d 824, 827 (9th Cir. 1992) (holding that the “explicitness requirement”
of McCormick does not require an official to “specifically state[] that he will exchange
official action for a contribution”). “Express” refers to something that is “declared in
terms; set forth in words . . . and not left to inference.” Blandford, 33 F.3d at 696 n.13
(emphasis omitted) (quoting Express, Black’s Law Dictionary 580 (6th ed. 1990)).
“Explicit,” on the other hand, means “[n]ot obscure or ambiguous, having no disguised
meaning or reservation. Clear in understanding.” Id. (alteration in original) (emphasis
omitted) (quoting Explicit, Black’s Law Dictionary 579 (6th ed. 1990)). Thus, an explicit
arrangement need not be “memorialized in a writing” or spoken aloud. Siegelman, 640
F.3d at 1171. “To hold otherwise . . . would allow defendants to escape criminal liability
through ‘knowing winks and nods.’” Id. (quoting Evans v. United States, 504 U.S. 255,
274 (1992) (Kennedy, J., concurring)). Indeed, “a quid pro quo with the attendant
corrupt motive can be inferred from an ongoing course of conduct,” or “implied from [the
parties’] words and actions.” Evans, 504 U.S. at 274 (Kennedy, J., concurring) (italics
omitted). Thus, “direct and circumstantial evidence,” including the context of the
arrangement, may be used to prove that there was a “clear and unambiguous” promise of
official action in exchange for payment. Carpenter, 961 F.2d at 827; cf. United States v.
Allen, 10 F.3d 405, 411 (7th Cir. 1993) (“Vague expectations of some future benefit
should not be sufficient to make a payment a bribe.”). Therefore, whether based on direct
or circumstantial evidence, the “Government need only show that a public official has
obtained a payment to which he was not entitled, knowing that the payment was made in
return for official acts.” Evans, 504 U.S. at 268.
8
8a

Case: 19-1604

Document: 105

Page: 9

Date Filed: 01/05/2021

Here, there is sufficient evidence from which the jury could have concluded that
Davis and Green entered into a corrupt bargain. On one side of that bargain, Davis
provided Green with a “stream of benefits.” See United States v. Wright, 665 F.3d 560,
568 (3d Cir. 2012) (“[Bribery] does not require that each quid, or item of value, be linked
to a specific quo, or official act. Rather, a bribe may come in the form of a ‘stream of
benefits.’” (emphasis omitted) (quoting United States v. Bryant, 655 F.3d 232, 240-41
(3d Cir. 2011))). For instance, during the 2007 campaign, Davis contributed more than
$65,000 in cash and over $148,000 in free advertising services. These contributions
came within the context of a larger stream of benefits that Davis provided to Green,
including arranging to provide Green a renovated house at a loss, giving Green
significant funds for Green’s retirement home, and supplying cash. Davis provided these
benefits in return for an explicit benefit: to receive multi-million-dollar contracts from the
Sheriff’s Office. Green had the power to award Sheriff’s Office business and gave Davis
over $35 million of it between 2002 and 2010. Continuity of this business was critical to
Davis as a significant amount of his companies’ work came from the Sheriff’s Office,
and this flow of steady and lucrative work provided strong motivation for Davis to
encourage Green to continue to serve as Sheriff in 2007. Witnesses testified that this was
indeed the reason why Davis wanted Green to run and why he had a strong interest in
Green’s eventual successor.
The pair also sought to conceal the scope of their relationship, which provides a
basis to infer that they understood that they had made a corrupt bargain. Davis’s work
for the Sheriff’s Office was based on an oral agreement which was reduced to writing
9
9a

Case: 19-1604

Document: 105

Page: 10

Date Filed: 01/05/2021

only after an audit disclosed its existence. Even after the agreements were reduced to
writing, they failed to disclose the full scope of the work Davis’s companies performed
and the fees they received. Similarly, Green did not disclose on his City Financial
Interest forms the gifts, loans, and funds Davis provided. Furthermore, Davis ensured
that the CFRs failed to disclose or falsely reported the funds he provided to Green’s
campaign. These acts of concealment provided the jury with a basis to conclude that
Davis and Green fully understood that Davis would provide Green with benefits in the
form of campaign contributions and Davis would receive millions of dollars in Sherriff’s
Office work, and that neither wanted their arrangement to be known. See United States
v. Terry, 707 F.3d 607, 615 (6th Cir. 2013) (“[T]he government never presented a formal
agreement between Russo and Terry stating that Russo’s gifts would control Terry’s
actions. But . . . there was ample evidence for the jury to infer that an agreement
nonetheless existed between the two men.”). Because there was sufficient evidence upon
which the jury could find that an explicit quid pro quo existed, we will affirm its
conspiracy and honest services fraud verdicts. 8
B9

8

Because the evidence supported the conspiracy and honest services wire fraud
convictions, there was no spillover from any allegedly invalid convictions that could have
tainted Davis’s convictions for tax fraud and failure to pay taxes, and thus we will affirm
those as well.
9
We review interpretation of the Sentencing Guidelines de novo and factual
findings for clear error. United States v. Grier, 475 F.3d 556, 570 (3d Cir. 2007) (en
banc).
10

10a

Case: 19-1604

Document: 105

Page: 11

Date Filed: 01/05/2021

Davis also challenges the calculation of his Sentencing Guidelines offense level.
When a defendant is convicted of a bribery-related offense, the offense level may be
increased based on “the value of the payment, the benefit received or to be received in
return for the payment, the value of anything obtained or to be obtained by a public
official or others acting with a public official, or the loss to the government from the
offense, whichever is greatest.” U.S.S.G. § 2C1.1(b)(2). The “‘benefit received’ under
§ 2C1.1(b)(2) is the net value, minus direct costs, accruing to the entity on whose behalf
the defendant paid the bribe.” United States v. Lianidis, 599 F.3d 273, 275 (3d Cir.
2010). Direct costs are those “that can be specifically identified as costs of performing a
contract.” Id. at 281 (quoting United States v. Landers, 68 F.3d 882, 884 n.2 (5th Cir.
1995)).
The Probation Office calculated Davis’s “total profit/net income” for the period of
2004 to 2010 based on his reported profit from Reach/RCS and his net income from
Reach as determined by the IRS, resulting in a figure of $1,909,489. It then considered
that ninety percent of that business came from contracts with the Sherriff’s Office and
found $1,718,540.10 as the value Davis received. That benefit resulted in a sixteen-level
increase in Davis’s offense level. See U.S.S.G. § 2B1.1(b)(1).
Davis argues the District Court erred in calculating his offense level under the
Sentencing Guidelines because it considered all the funds from his business with the
Sheriff’s Office from 2002 to 2010, rather than determining exactly how much of that
business was “in return for” his bribes. According to Davis, at least some of that business
resulted from his existing relationship with Green, not the bribes.
11
11a

Case: 19-1604

Document: 105

Page: 12

Date Filed: 01/05/2021

“[T]he threshold for establishing a causal connection” under § 2C1.1(b)(2) “is
low.” United States v. McNair, 605 F.3d 1152, 1230 (11th Cir. 2010) (collecting cases).
“To show that the bribes benefited the people paying them . . . it is enough for the
government to show that the bribes facilitated the . . . operations.” United States v.
Sapoznik, 161 F.3d 1117, 1119 (7th Cir. 1998).
The bribe scheme facilitated Davis’s businesses. Davis provided Green benefits
for years, and, during that time, Davis received millions of dollars of Sherriff’s Office
business. Even if Davis’s initial business with the Sheriff’s Office occurred before the
bribery scheme took root, the evidence revealed that Green thereafter received a stream
of benefits, Davis received more and more business, and the pair sought to conceal their
arrangement. When Davis grew concerned that this pipeline for work would dry up if
Green were no longer the Sherriff, he actively persuaded Green to run for reelection and
provided funds and services to ensure Green was reelected. When Green ultimately
decided to retire, Davis sought to play a role in identifying Green’s successor to ensure
that he continued to receive Sheriff’s Office business. Thus, the District Court correctly
determined that the benefits Davis received were in return for the benefits he gave to
Green.
The District Court also assigned a conservative net value to the benefits Davis
received. Davis’s companies earned $35 million from the work performed for the
Sheriff’s Office. To assign a value, the Court used the amount received during the year
in which Reach received the lowest percentage of its income from the Sheriff’s Office,
and considered that ninety percent of Davis’s business came from that Office. This
12
12a

Case: 19-1604

Document: 105

Page: 13

Date Filed: 01/05/2021

calculation was tethered to the record and hence was not clear error. See Sapoznik, 161
F.3d at 1118-19 (rejecting argument that “the government failed to show how much of
[the bribers’ gambling revenue] was actually due to [the defendant’s] bribe-induced
efforts to protect the illegal gambling” as “too speculative an inquiry to force on the
sentencing process”). Thus, Davis’s sentencing challenge lacks merit.
III
For these reasons, we will affirm the judgment of conviction.

13
13a

Case: 19-1604

Document: 73

Page: 16

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 1 of 18
-

For Publication -

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA

CRIMINAL ACTION
NO. 15-138-1

v.
JAMES DAVIS

OPINION
After a twenty-five day trial, Defendant James Davis was found guilty of: (i) conspiracy
to commit honest services fraud under 18 U.S.C. § 371; and, (ii) honest services fraud under 18
U.S.C. §§ 1343, 1346, and 1349. The Government alleged that he provided a stream of benefits,
including campaign contributions and personal payments to the then-Sheriff of Philadelphia,
John Green, in exchange for lucrative services contracts from the Philadelphia Sheriff’s Office.
Davis has moved for acquittal pursuant to Rule 29 of the Federal Rule of Criminal Procedure or,
in the alternative, for a new trial pursuant to Rule 33 on both counts. For the reasons set forth
below, Davis’s motions shall be denied.
I.

LEGAL STANDARD UNDER RULE 291
“A judgment of acquittal is appropriate under Federal Rule of Criminal Procedure 29 if,

after reviewing the record in a light most favorable to the prosecution, we determine that no
rational jury could have found proof of guilt beyond a reasonable doubt.” United States v. Willis,
844 F.3d 155, 164 n.21 (3d Cir. 2016). “The prosecution may bear this burden entirely through
circumstantial evidence.” United States v. Bobb, 471 F.3d 491, 494 (3d Cir. 2006). The
evidence is reviewed “as a whole, not in isolation. . . .” United States v. Caraballo-Rodriguez,
1

The analysis here and in the following sections principally addresses Davis’s sufficiency challenge. A separate
section will discuss his Rule 33 motion.
14a

Appx11

Case: 19-1604

Document: 73

Page: 17

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 2 of 18

726 F.3d 418, 430 (3d Cir. 2013) (en banc) (quoting United States v. Boria, 592 F.3d 476, 480
(3d Cir. 2010)).
II.

BACKGROUND
Davis is a Philadelphia businessman who owns Reach Communications Specialists, Inc.

(“Reach”) and RCS Searchers, Inc. (“RCS”). Davis’s, co-defendant, John Green, was elected
Sheriff of Philadelphia for the first time in 1988 and held the office until his retirement in
December 2010. Since at least 2003, Reach was “the advertising agency of record for the
Philadelphia Sheriff’s Office,” publishing notices of the Office’s property foreclosure sales in
various newspapers. RCS, on the other hand, conducted title searches and prepared deeds for
distressed properties that would be sold at the Sheriff’s sales.
i. Stream of Benefits
The crux of the Superseding Indictment was that Davis bribed Green with a “stream of
benefits” in exchange for Reach and RCS receiving lucrative Sheriff’s Office contracts,
involving substantial and increasing amounts of money, from around 2002 to 2010. Indeed, a
forensic investigator who examined Sheriff’s Office financial records found that an
“overwhelming percentage of the fees that the Sheriff was paying . . . went to or through RCS
and Reach.” At trial, the Government adduced evidence of a “stream of personal benefits” that
encompassed a wide range of activity, such as Davis:
x

selling Green a newly renovated home at a discounted rate;

x

providing Green with free rent and utilities at that home before it was sold;

x

retaining Green’s wife as a subcontractor and paying her company $232,000 over
the years;

x

providing Green with a $258,151.21 interest-free loan to purchase a retirement
home in Florida;

2
15a

Appx12

Case: 19-1604

Document: 73

Page: 18

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 3 of 18

x

making additional payments of at least $66,000 to Green, some of which was not
repaid and none of which had an interest rate or a re-payment schedule; and

x

making hidden and indirect payments of at least $65,100 towards Green’s reelection campaigns.
ii. The 2010 Annual Campaign Finance Report Wire Transmission

For the honest services fraud count at issue, the Government asserted that Davis
attempted to conceal the extent of his financial support for Green: Specifically, that in early
2011, Davis caused a wire transfer that furthered the bribery scheme – an interstate electronic
filing of Green’s 2010 Annual Campaign Finance Report that fraudulently understated the actual
amount of financial assistance Davis provided during Green’s re-election run in 2007.
Evidence adduced at trial showed that although Davis gave Green over $60,000 in 2007,
Davis told a Sheriff’s Office employee to underreport that number as $30,000. That falsified
number was carried forward as an outstanding campaign debt in subsequently filed campaign
finance reports, including the electronic version of the 2010 Annual Campaign Finance Report.
In her testimony, Barbara Deeley – a management-level employee at the Sheriff’s Office
who helped with Green’s re-election campaign – provided details related to this false Annual
Campaign Finance Report.2 According to Deeley, when the re-election campaign was low on
funds in early May 2007 and Deeley brought it to Green’s attention, he replied, “Talk to Davis.”
After she discussed the matter with Davis, Davis caused $50,000 to be transferred into the
campaign’s bank account.3 When Deeley asked Davis about reporting this sum on a handwritten
version of the campaign finance reports, Davis told her not to “worry about it” and not to list the
2

Deeley served as Chief of Staff, Chief Deputy, and Acting Sheriff at different points in time from 1995 to 2011.

3

The $50,000 was funded by Davis’s nephew, Darnell Lloyd. However, Lloyd himself did not directly contribute
the $50,000 to Green’s re-election campaign. Rather, Davis told Lloyd of a real estate investment opportunity that
required a $50,000 payment. Lloyd then made that payment, assuming that it would be used to fund the real estate
opportunity. Instead Davis paid it into the campaign.

3
16a

Appx13

Case: 19-1604

Document: 73

Page: 19

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 4 of 18

number on the physical report. Months later, Davis contributed an additional $12,600 to Green’s
re-election campaign, and again told Deeley not to report it.4 Instead, at Davis’s behest, Deeley
only recorded $30,000’s worth of unpaid debt to Reach in the handwritten 2007 Annual
Campaign Finance Report. In other words, Davis directed Deeley to misstate the amount of
financial assistance that he actually provided to Green’s re-election campaign on a formal
document. Once the false campaign debt was listed on the 2007 Annual Campaign Finance
Report it was re-listed on all subsequent reports.
Each of those reports, in turn, had to be submitted electronically to Philadelphia’s Board
of Ethics – a fact that Davis was aware of, according to Reach employee Yvonne Cornell, who
helped prepare the electronic version of the reports. For example, in filing the January 2008
report, Cornell read Deeley’s handwritten 2007 Annual Campaign Finance Report then carried
over the false $30,000 debt to Reach into the electronic version of the 2008 report. Although
Cornell did not recall electronically filing the 2010 Annual Campaign Finance Report, the parties
agree that this form was electronically filed by interstate wire. Because Davis knew that the
Board of Ethics required electronic filings, the Government contends that it was reasonably
foreseeable that the fraudulent $30,000 debt that Davis initially told Deeley to write into the
2007 Annual Campaign Finance Report would carry over to the 2010 Annual Campaign Finance
Report – the wire transmission supporting Davis’s honest services fraud verdict.
Based on the above and other evidence presented at trial, the jury found Davis guilty of
conspiracy to commit honest services fraud and substantive honest services fraud.

4

According to Deeley, Davis did not directly contribute this amount into the campaign’s bank account because “he
did not want it to look like he was giving all of that money to the campaign. . . .” Instead, Deeley deposited the
$12,600 after Davis wrote her a $12,600 check for renting her “summer condo.” As Deeley testified, she did not
rent Davis a summer home, nor did she even own one.

4
17a

Appx14

Case: 19-1604

Document: 73

Page: 20

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 5 of 18

III.

RULE 29 DISCUSSION
A. Honest Services Fraud
“To prove wire fraud, the Government must establish ‘(1) the defendant’s knowing and

willful participation in a scheme or artifice to defraud, (2) with the specific intent to defraud, and
(3) the use of . . . interstate wire communications in furtherance of the scheme.’” See United
States v. Andrews, 681 F.3d 509, 518 (3d Cir. 2012). The phrase “scheme or artifice to defraud”
is defined to include “a scheme or artifice to deprive another of the intangible right of honest
services.” 18 U.S.C. § 1346; Andrews, 681 F.3d at 518. As interpreted by the Supreme Court,
Section 1346 criminalizes only “fraudulent schemes to deprive another of honest services
through bribes or kickbacks.” Id. (quoting Skilling v. United States, 561 U.S. 358, 404 (2010)).
Davis mainly advances two grounds in seeking acquittal, arguing that there was insufficient
evidence of (i) a bribery scheme; and (ii) a knowing wire transmission in furtherance of that
bribery scheme. Neither ground warrants acquittal for his honest services fraud verdict.
i. Bribery Scheme
If, as here, the Government’s theory of bribery is based on a public official’s receipt of
campaign contributions, the contributions are illegal “only if the payments are made in return for
an explicit promise or undertaking by the official to perform or not to perform an official act.”5
McCormick v. United States, 500 U.S. 257, 273 (1991). Davis contends that there is insufficient
evidence in support of an “explicit” bribery scheme – in legal parlance, a “quid pro quo” – with
Green, who was a public official at the relevant times of the Superseding Indictment. See United

5

This Court has already found that McCormick’s requirement of an “explicit promise or undertaking” applies to
honest services fraud. See United States v. Davis, 2018 U.S. Dist. LEXIS 22049, at *15 (E.D. Pa. 2018); see also
United States v. Siegelman, 640 F.3d 1159, 1170 (11th Cir. 2011) (“While the Supreme Court has not yet considered
whether the federal funds bribery, conspiracy or honest services maul fraud statutes require a similar ‘explicit
promise,’ the Seventh Circuit Court of Appeals has observed that extortion and bribery are but ‘different sides of the
same coin.’”) (citing United States v. Allen, 10 F.3d 405, 411 (7th Cir. 1993)).

5
18a

Appx15

Case: 19-1604

Document: 73

Page: 21

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 6 of 18

States v. Sun-Diamond Growers of Cal., 526 U.S. 398, 404-05 (1999) (“[F]or bribery there must
be a quid quo pro – a specific intent to give or receive something of value in exchange for any
official act.”); United States v. Kemp, 500 F.3d 257, 281 (3d Cir. 2007) (same).
Although the Supreme Court has not delineated the contours of what an “explicit”
promise is and what it is not, Justice Kennedy, in a concurring opinion in Evans v. United States,
opined that a quid pro quo need not be stated in “express terms, for otherwise the law’s effect
could be frustrated by knowing winks and nods.” 504 U.S. 255, 274 (1992) (Kennedy, J.,
concurring). Thus, a quid pro quo can be based on inference: “The inducement from the official
is criminal if it is express or if it is implied from his words and actions, so long as he intends it to
be so and the payor so interprets it.” Id. This formulation of a quid pro quo for bribery schemes
has since been adopted by the Third Circuit. United States v. Wright, 665 F.3d 560, 569 (3d Cir.
2012); see also United States v. Garrido, 713 F.3d 985, 997 (9th Cir. 2013) (“Section 1346
honest services convictions on a bribery theory . . . require at least an implied quid pro quo.”).
Viewed in the light most favorable to the Government, the evidence is sufficient to show
that Davis participated in a quid pro quo and tried to conceal it through Green’s 2010 Annual
Campaign Finance Report. See id. (“Parties to a bribery scheme rarely reduce their intent to
words, but the law does not require that.”).
1. Benefits to Green
It is settled law in the Third Circuit that bribes may come in the form of a “stream of
benefits.” United States v. Ciavarella, 716 F.3d 705, 730 (3d Cir. 2013); Wright, 665 F.3d at
568 (quoting United States v. Bryant, 655 F.3d 232, 240-41 (3d Cir. 2011)); Kemp, 500 F.3d at
282. This form of bribery “does not require that each quid, or item of value, be linked to a
specific quo, or official act.” Ciavarella, 716 F.3d at 730 (quoting Wright, 665 F.3d at 568). In

6
19a

Appx16

Case: 19-1604

Document: 73

Page: 22

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 7 of 18

other words, the Government was not required to peg every benefit that Davis gave to an official
act by Green in determining whether Davis participated in a bribery scheme. Given that Davis,
among other things, (a) sold Green a newly renovated home at a discounted rate; (b) provided
Green with an interest-free loan of over $250,000 so that he could purchase a retirement home;
and (c) gave several loans to Green that have not yet been repaid, a rational juror could conclude
that Davis conferred a “stream of benefits” on Green to encourage Green to have the Sherriff’s
Office enter into contracts with Reach and RCS – in other words, that Davis bribed Green so that
Reach and RCS could keep and grow its business with the Sheriff’s Office.
Davis nevertheless contends that the Government’s stream of benefits theory is
inconsistent with McCormick insofar as the Government relies on Davis’s campaign
contributions for his conviction. As the Third Circuit has cautioned, “[c]ampaign contribution
cases present special problems because persons who hope that their interests will receive
favorable treatment from elected officials legitimately may make campaign contributions to
those officials.” United States v. Bradley, 173 F.3d 225, 231 n.1 (3d Cir. 1999) (citing
McCormick, 500 U.S. at 272-73). Thus, according to Davis, because the Government failed to
tether each campaign contribution to an official act by Green, Davis must be acquitted of honest
services fraud.
But, even in the context of campaign contributions, the stream of benefits theory of
bribery survives McCormick. As an initial matter, Davis cites no case law which holds that the
stream of benefits theory is at odds with McCormick’s requirement of an “explicit promise”
made by a public official. Although post-McCormick case law in the Third Circuit has not
directly addressed whether campaign contributions can be properly regarded as a benefit under a
stream of benefits theory, Supreme Court and Third Circuit precedent suggest that it can. In

7
20a

Appx17

Case: 19-1604

Document: 73

Page: 23

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 8 of 18

Evans, for instance, the Supreme Court “permitted a jury to convict a state legislator who
attempted to claim the payment he received was a campaign contribution.” United States v.
Terry, 707 F.3d 607, 613 (6th Cir. 2013) (discussing Evans, 504 U.S. at 257-59). And in Kemp,
the Third Circuit, upholding the validity of a stream of benefits instruction, held that “[w]hile the
form and number of gifts may vary, the gifts still constitute a bribe as long as the essential intent
. . . exists.” 500 F.3d at 282. Hence, an improper gift can masquerade in the “form” of a
campaign contribution. See id. It follows, then, that if a single campaign contribution standing
by itself can be considered a bribe, it remains a bribe when it is otherwise part of a stream of
non-campaign related bribes.
To the extent Davis suggests that the jury mistakenly assumed that his campaign
contributions were ipso facto a bribe because it was grouped together with other benefits shown
at trial, the Court delivered jury instructions dispelling that notion.6 And while Davis correctly
maintains that he has a First Amendment right to make campaign contributions, that does not,
under McCormick, give him a concomitant right to use those contributions to acquire lucrative
contracts from the Sheriff’s Office.7 See Terry, 707 F.3d at 614 (“Whatever else McCormick
may mean, it does not give an elected judge the First Amendment right to sell a case so long as
the buyer has not picked out which case at the time of sale.”).
What’s more, other circuits have held that campaign contributions can constitute an

6

As the Court explained, “with respect to campaign contributions, the solicitation or acceptance by an elected
official of a campaign contribution does not, in itself, constitute a federal crime, even if the donor has business
pending before the official, and even if the contribution is made shortly before or after the official acts favorable to
the donor. Instead, with respect to campaign contributions, the Government must prove that the contributions were
offered, made, or accepted in return for an explicit promise or undertaking by the official to perform or not to
perform an official act. The agreement must be explicit, but there is no requirement that it be express.”

7

For this reason, Davis’s contention that the jury’s guilty verdict must be set aside because it may have been based
on an impermissible ground – criminalizing his constitutional right to make campaign contributions – fails as well.

8
21a

Appx18

Case: 19-1604

Document: 73

Page: 24

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 9 of 18

improper benefit when financial favors to a public official are at issue.8 As the Sixth Circuit has
explained, “[t]hat a bribe doubles as a campaign contribution does not by itself insulate it from
scrutiny.” Id. at 613. And, “[t]he agreement between the public official and the person offering
the bribe need not spell out which payments control which particular official acts.” Id. at 612.
Instead, “it is sufficient if the public official understood that he or she was expected to exercise
some influence on the payor’s behalf as opportunities arose.” Id. (quoting United States v.
Abbey, 560 F.3d 513, 518 (6th Cir. 2009)); see also United States v. Ganim, 510 F.3d 134, 145
(2d Cir. 2007) (holding that benefits to public official need not be “directly linked to a particular
act at the time of agreement,” even when defendant argued that the gifts were received as a part
of “legitimate lobbying activity”). In a Fifth Circuit case involving two state judges who “argued
that the loan guarantees they received were made in the context of their electoral campaigns and
thus required special protection,” the court concluded that the payments were bribes. Terry, 707
F.3d at 613 (discussing United States v. Whitfield, 590 F.3d 325, 353 (5th Cir. 2009)). Indeed, as
the Fifth Circuit observed, the “overwhelming weight of authority . . . supports the conclusion
that the law does not require” the Government to identify a “particular case” that was influenced
by a bribe. Whitfield, 590 F.3d at 353.
More to the point, the Ninth Circuit held that the “explicitness requirement” of
McCormick does not require that a public official “specifically state[] that he will exchange
official action for a contribution.” United States v. Carpenter, 961 F.2d 824, 827 (9th Cir. 1992).
“To read McCormick as imposing such a requirement would allow officials to escape liability . . .
with winks and nods, even when the evidence as a whole proves that there has been a meeting of
the minds to exchange official action for money.” Id.

8

In contrast to the Third Circuit, the other circuits do not refer to this theory of bribery as “stream of benefits.”

9

22a

Appx19

Case: 19-1604

Document: 73

Page: 25

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 10 of 18

In sum, the Government presented evidence showing the myriad financial benefits that
Davis conferred upon Green in exchange for Reach and RCS’s continued business with the
Sheriff’s Office. For bribery prosecutions, “[courts] rely on the good sense of jurors . . . to
distinguish intent from knowledge or recklessness where the direct evidence is necessarily
scanty.” Wright, 665 F.3d at 569; Terry, 707 F.3d at 612 (“As most bribery agreements will be
oral and informal, the question is one of inferences taken from what the participants say, mean
and do, all matters that juries are fully equipped to assess.”); see also McDonnell v. United
States, 136 S. Ct. 2355, 2371 (2016) (“It is up to the jury, under the facts of the case, to
determine whether the public official agreed to perform an ‘official act’ at the time of the alleged
quid pro quo.”). At bottom, there was sufficient evidence for a rational juror to find a bribery
scheme beyond a reasonable doubt.
2. Green’s Official Acts
On the other end, Davis benefitted from Green’s “official acts.” For purposes of bribery,
an “official act” is “any decision or action on a ‘question, matter, cause, suit, proceeding or
controversy, which may at any time be pending, or which may by law be brought before any
public official, in such official’s official capacity, or in such official’s place of trust or profit.’”
McDonnell, 136 S. Ct. at 2367 (quoting 18 U.S.C. § 201(a)(3)). An official act requires two
parts. First, “the Government must identify a ‘question, matter, cause, suit, proceeding or
controversy’ that ‘may at any time be pending’ or ‘may by law be brought’ before a public
official,” which involves a “formal exercise of governmental power that is similar in nature to a
lawsuit before a court, a determination before an agency, or a hearing before a committee.” Id.
at 2369; United States v. Fattah, -- F.3d --, 2018 WL 3764543, at *25 (3d Cir. 2018). Second,
“the Government must prove that the public official made a decision or took an action ‘on’ that

10
23a

Appx20

Case: 19-1604

Document: 73

Page: 26

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 11 of 18

question, matter, cause, suit, proceeding, or controversy, or agreed to do so.” McDonnell, 136 S.
Ct. at 2368; Fattah, 2018 WL 3764543, at *25. Green’s official act of awarding contracts to
Davis’s companies meets both requirements.
Awarding Davis’s companies lucrative contracts for advertising the Sheriff’s sales was a
determination made by a municipal agency.9 Supreme Court and Third Circuit precedent
confirm this conclusion. See McDonnell, 136 S. Ct. at 2374 (holding that an agency’s allocation
of grant money by a state commission qualifies as an “official act”); United States v. Repak, 852
F.3d 230, 253 (3d Cir. 2017) (holding that a decision by the Johnstown Redevelopment
Authority, a governmental agency, to award money to contractors was “undoubtedly” a “formal
exercise of governmental power”); see also United States v. Boyland, 862 F.3d 279, 291 (2d Cir.
2017), cert. denied, 138 S. Ct. 938 (2018) (holding that “City or State approvals” necessary to
award demolition contracts “require the formal exercise of governmental power.”); United States
v. Pomrenke, 198 F. Supp.3d 648, 701 (W.D. Va. 2016) (holding that “[t]he award of a contract
by a public entity is ‘a formal exercise of governmental power,’ similar in nature to ‘a lawsuit,
hearing, or administrative determination.’”) (quoting McDonnell, 136 S. Ct. at 2368).
And awarding these contracts was a matter “pending” before Green in his capacity as a
public official. See McDonell, 136 S. Ct. at 2369 (holding that the word “pending” “suggest[s]
something that is relatively circumscribed – the kind of thing that can be put on an agenda,
tracked for progress, and then checked off as complete.”); Repak, 852 F.3d at 253 (concluding
that the award of contracts by the redevelopment authority is something that is “pending” under

9

Though Davis argues that Green’s decision to run for re-election is not an “official act” under McDonnell, this
misses the mark; the exercise of governmental power, as alleged in the Superseding Indictment and proven at trial,
was awarding contracts to Davis’s companies for his advertising services.

11
24a

Appx21

Case: 19-1604

Document: 73

Page: 27

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 12 of 18

McDonnell).10
Green also made a “decision” on the matter of awarding contracts to Reach and RCS for
Sheriff’s sales. See McDonnell, 136 S. Ct. at 2368. As two longtime Sheriff’s office employees
testified, Green decided the vendors to use for the foreclosure sales, the amount of work they
could perform, and the fees they could charge. Indeed, Green’s blessing was needed for all
vendors who wished to do business with the Sheriff’s Office. Green exercised that decisionmaking power by making Reach and RCS the Sheriff’s Office’s “primary vendors” which, as
such, received an “overwhelming percentage” of the fees paid out for the Sheriff’s sales.
ii. Knowing Transmission of the Wire Communication
Davis alternatively contends that there is insufficient evidence to show that he
“knowingly caused” an interstate wire transmission.11 See Andrews, 681 F.3d at 529.
Specifically, Davis argues that “the trial record contains no evidence indicating who filed” the
2010 Annual Campaign Finance Report. According to Davis, the Reach employee who
completed this report, Cornell, was unable to recall if she had prepared or filed any campaign
finance report in 2010.
Honest services fraud based on a wire transmission “does not require that the defendant
himself sent the communication or that he intended that interstate wire communications would
be used.” See id. Instead, it is sufficient if Davis here “knowingly caused” the use of the wire
communication. Id. (citing United States v. Bentz, 21 F.3d 37, 40 (3d Cir. 1994)). If he “does an
act with the knowledge” that the use of the wire communication will “follow in the ordinary

10

In contrast, “matters described at a high level of generality – for example, ‘[e]conomic development,’ ‘justice,’
and ‘national security’ – are not sufficiently ‘focused and concrete.’” Fattah, 2018 WL 3764543, at *25 (quoting
McDonnell, 136 S. Ct. at 2369).
11

The parties stipulated that the wire transmission crossed state lines, going from Texas to Pennsylvania.

12
25a

Appx22

Case: 19-1604

Document: 73

Page: 28

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 13 of 18

course of business, or where such use can reasonably be foreseen, even though not actually
intended,” then Davis caused the wire to be used. See id. (quoting Pereira v. United States, 347
U.S. 1, 8-9 (1954)).
A rational juror could find that Davis’s wire transmission of the 2010 Annual Campaign
Finance Report was reasonably foreseeable based on the following pieces of testimony presented
during trial:
x

Davis directed Deeley to understate the amount of actual debt owed to Reach in
hard-copy versions of the 2007 Annual Campaign Finance Report;

x

Davis asked Cornell, who relied on Deeley’s handwritten 2007 Annual Campaign
Finance Report, to complete the electronic versions;

x

Davis generally knew that the Annual Campaign Finance Reports, including the
one from 2010, had to be submitted electronically to Philadelphia’s Board of
Ethics;

x

Cornell previously filed an electronic Campaign Finance Filing Form with
Philadelphia’s Department of Records in 2008 and included the false $30,000
debt that was carried over from the handwritten 2007 Annual Campaign Finance
Report; and

x

Somebody filed an electronic 2010 Annual Campaign Finance Report including
the false $30,000 debt.

On these facts, Government satisfied the causation requirement for honest services wire fraud.
Although Davis notes that Cornell did not recall preparing or filing an electronic version of the
2010 Annual Campaign Finance Report, this is beside the point because the identity of the filer is
not at issue. Rather, the crucial point is that, given the facts above, it was reasonably foreseeable
that Davis’s fraud – the understated debt amount he told Deeley to put into the handwritten
Annual Campaign Finance Report, which was subsequently entered into the electronic version
by one of his own employees – would be transmitted via wire. See Andrews, 681 F.3d at 529. In
sum, the record supports the jury’s verdict for honest services fraud.

13
26a

Appx23

Case: 19-1604

Document: 73

Page: 29

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 14 of 18

B. Conspiracy
Conspiracy requires the following three elements: “(1) the existence of an agreement to
achieve an unlawful objective; (2) the defendant’s knowing and voluntary participation in the
conspiracy; and (3) the commission of an overt act in furtherance of the conspiracy.” United
States v. Rigas, 605 F.3d 194, 206 (3d Cir. 2010) (en banc) (internal quotation marks omitted).
The jury found Davis guilty of conspiracy to deprive Philadelphia and its citizens of their
intangible right to the honest services of Green as Sheriff. Davis, however, contends that: (i) the
conspiracy count fails under the statute of limitations and (ii) there was insufficient evidence of a
conspiratorial agreement. Neither reason is persuasive.
i. Statute of Limitations
Davis asserts that the statute of limitations bars the conspiracy count because the
Government adduced no evidence of a timely overt act. The statute of limitations for conspiracy
is five years after an indictment is returned by a grand jury and filed. 18 U.S.C. 3282(a); United
States v. Oliva, 46 F.3d 320, 324 (3d Cir. 1995). Given the filing date of the Superseding
Indictment, the Government was required to prove an overt act in furtherance of the conspiracy
that post-dated December 15, 2010. See United States v. Davis, 2018 U.S. Dist. LEXIS 22049,
at *6 (E.D. Pa. 2018).
To determine if there is a timely overt act, the “crucial question” at the outset is the
“scope of the conspiratorial agreement.” United States v. Bornman, 559 F.3d 150, 153 (3d Cir.
2009) (quoting Grunewald v. United States, 353 U.S. 391, 396 (1957)). That is because the
scope “determines both the duration, and whether the act relied on as an overt act may properly
be regarded as in furtherance of the conspiracy.” Id. As alleged in the Superseding Indictment
and argued by the Government at trial, the scope of this conspiracy was a quid pro quo: in
exchange for a stream of benefits, Green awarded Davis lucrative contracts. Thus, the inquiry is
14
27a

Appx24

Case: 19-1604

Document: 73

Page: 30

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 15 of 18

whether there was sufficient evidence of an overt act which occurred after December 15, 2010
that falls within the scope of the quid pro quo – the stream of benefits that Davis conferred upon
Green for the Reach and RCS contracts.
The Government produced evidence of numerous overt acts that occurred after December
15, 2010 related to the quid pro quo.12 These include:
x

The Sheriff’s Office’s two separate payments to Reach in December 29, 2010 for
advertising services in the amounts of $28,803.37 and $34,356.05;13

x

Davis’s wire transmission of $258,151.32 from his personal bank account to
Green’s title agency on December 20, 2010, and Green’s repayment of that amount
in March 2011 without any interest;

x

The 2010 Annual Campaign Finance Report transmitted in January 2011 by wire,
falsely reporting that Green’s campaign owed $30,000 to Reach; and

x

Davis’s $10,000 loan to Green in September 2011 that was never repaid.14

Davis’s reply briefing does not otherwise explain how the $258,151.32 interest-free loan
by Davis, its repayment by Green, or the fraudulent 2010 Annual Campaign Finance Report wire
falls outside the scope of the quid pro quo.

12

Not all overt acts alleged in the Superseding Indictment will be addressed because “the government is not required
either to prove all the overt acts to a conspiracy to a conspiracy or all the facts supporting the overt act.” See United
States v. Kapp, 781 F.2d 1008, 1012 (3d Cir. 1986). Rather, “[i]t is sufficient that the government prove a single
overt act in furtherance of the conspiracy.” Id.

13

Davis argues that the two checks cannot be overt acts for the conspiracy count because the jury acquitted him of
two honest services fraud counts based on these payments. This argument fails. In evaluating sufficiency
challenges to convictions, the “review should be independent of the jury’s determination that evidence on another
count was insufficient.” United States v. Powell, 469 U.S. 57, 67 (1984); see also United States v. Salahuddin, 765
F.3d 329, 349 (3d Cir. 2014) (“[T]he jury’s acquittal on the attempt count is irrelevant to our review of the
sufficiency of the evidence on the conspiracy count.”). Thus, the jury’s decision to acquit Davis of two honest
services fraud counts has no bearing on the sufficiency of evidence for his conspiracy count.

14

Davis argues that the $10,000 loan cannot be an overt act because it was made nine months after Green retired
from the Sheriff’s Office. But that argument was already addressed and rejected in Davis’s motion to dismiss. See
Davis, 2018 U.S. Dist. LEXIS 22049, at *10 (noting that the receipt of expected profits in an economically motivate
conspiracy is an overt act) (citing United States v. Vasquez-Uribe, 426 F. App’x 131, 134 (3d Cir. 2011)); see also
id. n.3 (collecting cases from different circuits holding the same). A rational juror could conclude that the $10,000
unpaid loan was a kickback from Davis to Green for awarding contracts to Reach and RCS.

15
28a

Appx25

Case: 19-1604

Document: 73

Page: 31

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 16 of 18

ii. Agreement
That there was an agreement, in which Davis was a party, to defraud Philadelphia and its
citizens of Green’s honest services is supported by the evidence. Courts must give “close
scrutiny” to sufficiency of the evidence challenges to conspiracy convictions because “slight
evidence” of a defendant's connection to a conspiracy will not do. United States v. Brodie, 403
F.3d 123, 134 (3d Cir. 2005). A conspiracy conviction may, however, be established entirely by
circumstantial evidence. Id.; United States v. Smith, 293 F.3d 473, 477 (3d Cir. 2002) (“The
existence of a conspiracy can be inferred from evidence of related facts and circumstances from
which it appears as a reasonable and logical inference, that the activities of the participants . . .
could not have been carried on except as the result of a preconceived scheme or common
understanding.”) (internal quotation marks omitted). This was the case here.
Based on the (a) various benefits Davis conferred upon Green that are discussed above
and (b) the business that Reach and RCS enjoyed at the Sheriff’s Office, a rational juror could
conclude that Davis and Green had a “preconceived scheme or common understanding” of the
quid pro quo that deprived Philadelphia and its citizens of Green’s honest services. See id.
Thus, the jury’s verdict for conspiracy stands.
IV.

RULE 33 DISCUSSION
Rule 33 of the Federal Rules of Criminal Procedure provides that “the court may vacate

any judgment and grant a new trial if the interest of justice so requires.” “A district court can
order a new trial on the ground that the jury’s verdict is contrary to the weight of the evidence
only if it ‘believes that there is a serious danger that a miscarriage of justice has occurred – that
is, that an innocent person has been convicted.’” United States v. Johnson, 302 F.3d 139, 150
(3d Cir. 2002) (quoting United States v. Santos, 20 F.3d 280, 285 (7th Cir. 1994)) (internal
quotation marks omitted). In evaluating a Rule 33 motion, the court “does not view the evidence
16
29a

Appx26

Case: 19-1604

Document: 73

Page: 32

Date Filed: 07/09/2020

Case 2:15-cr-00138-WB Document 221 Filed 09/12/18 Page 17 of 18

favorably to the Government, but instead exercises its own judgment in assessing the
Government’s case.” Id.
Exercising its own judgment, the Court concludes that the “interest of justice” does not
require a new trial or acquittal of the guilty verdicts. Fed. R. Crim. P. 33. Besides reiterating his
sufficiency challenge and re-incorporating objections made during trial, Davis offers no other
argument of how a “miscarriage of justice has occurred.” See Johnson, 302 F.3d at 150. The
jury’s verdicts were otherwise consistent with the weight of the evidence.
An order follows.
BY THE COURT:
/S/WENDY BEETLESTONE, J.
_______________________________
WENDY BEETLESTONE, J.

Date: September 12, 2018

17
30a

Appx27

Case: 19-1604

Document: 108

Page: 1

Date Filed: 02/09/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-1604

UNITED STATES OF AMERICA
v.
JAMES DAVIS,
Appellant

(D.C. No. 2:15-cr-00138-001)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and *FUENTES, Circuit Judges

The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
________________
*Hon. Julio M. Fuentes vote is limited to panel rehearing only.

31a

Case: 19-1604

Document: 108

Page: 2

Date Filed: 02/09/2021

BY THE COURT,

s/Patty Shwartz
Circuit Judge
Dated: February 9, 2021
PDB/cc: All Counsel of Record

32a

